No. _____

_

In the Supreme Court of the United States

MERLE DENEZPI,

Petitioner,
v.
UNITED

STATES OF AMERICA,

Respondent.

CERTIFICATE

OF SERVICE

I, Theresa M. Duncan, attorney for Petitioner appointed pursuant to the
Criminal Justice Act, certify that on March 26, 2021, the originals of the petition for
writ of certiorari,

this certificate

of service and a motion to proceed in forma pauperis

in the above-referenced case were deposited with FedEx in Santa Fe, New Mexico,
properly addressed to the Clerk of the United States Supreme Court and within the
time for filing said petition for writ of certiorari.
I further certify that the petition for writ of certiorari and motion to proceed in
forma pauperis were served on the following counsel:
Elizabeth Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue NW
1

Room 5616
Washington, DC 20530
SupremeCtBriefs@usdoj.gov
Jeffrey Graves, Assistant U.S. Attorney
United States Attorney for the District of Colorado
103 Sheppard Drive
Room 215
Durango, CO 81303
Jeffrey.Graves@usdoj.gov

I further certify that all parties required to be served have been served.
Respectfully submitted,

Theresa M. Duncan
Duncan Earnest LLC
P.O. Box 2769
Santa Fe, NM 87504
(505) 710-6586
teri@duncanearnest.com

Counsel for Petitioner Merle Denezpi
CJA Appointed

2

